                                CLOSEOUT FOR M94110037



                                       e
Directorate for Mathematical and Physical Sciences provided OIG with an unsigned, undated letter that
she had received. The letter alleged that Dr.
            (his former institution) for
                                                                 the subject, had left the University of
                                                        University (his current institution) to "avoid a
censure investigation for the sexual harassment of his female graduate students." The letter stated that
the subject      supported by NSF.

        OIG determined that the subject's last NSF award had been closed in early 1991, but was
unable to conclude fiom the information in the letter whether the alleged harassment had occurred
during the time the award was active. OIG contacted the subject at his current institution and learned
that he was a department chairman. He said that he had left his former institution for a more
prestigious and lucrative position at his current institution. He said that about a year and a half ago
(three years after the close of the NSF award) he had been investigated by both his former and current
institution for alleged sexual harassment. He had been informed of each investigation only after it had
concluded that there was no basis for the allegation.

         At his suggestion, OIG contacted the provost at his current .htution and the division
chairman at his former institution. These individuals had conducted the investigations into the
allegation. The provost said that prior to offering the subject his current position all of the senior
officials at the m e n t institution had received an anonymous letter containing the allegation. He
contacted several senior officials, female M t y , and the head of the graduate student association (who
was female) at the former institution. None of these individuals thought there was any basis for the
allegation. Several were aware of a disgruntled female graduate student of the subject's who had
threatened to "get him." The provost concluded there was no substance to the allegation, offered the
subject his current position, and informed him of the investigation.

         The division chairman said that the former institution had not received a letter containing the
allegation. However after speaking with the current institution provost, the provost of the former
institution had appointed the chairman to conduct an investigation because the harassment had
allegedly taken place at that institution. The chairman interviewed many of the subject's current and
forrner female graduate students, none of whom supported the allegation. He said they were angry at
the suggestion that the subject would be accused of harassment and described their response to the
allegation as "you've got to be kidding me."

        The chairman said that the student suspected of sending the letters had, just before the letters
appeared, been severely criticized during a quali@ng exam. The chairman said that the student has
serious di£Ecultlyaccepting that she can be wrong. Although she had done poorly during the exam she

                                              Page 1 of 2                                      M94-37
                                CLOSEOUT FOR M94110037

was angry that the subject, her thesis advisor, had not defended her vigorously. She has been claiming
that she got the subject fired. The chairman said that the subject was a valued member of the division
and, rather than force him out, they had tried to encourage him to stay by matching his current
institution's salary offer. The chairman said he concluded there was no basis for the allegation and
informed the subject of his investigation onIy after he had reached his conclusion.

        OIG found that two separate institutions' investigations had concluded that there was no basis
for the allegation and that it was possible that the anonymous letter was authored by a disgruntled
graduate student who was using the allegation as a mechanism to harm her mentor's reputation rather
than to report actual harassment. OIG concluded that the institutions' efforts satidktorily addressed
the allegation, that it was doubthl that NSF had jurisdiction over this matter under its misconduct in
science regulation, and that there was no need to pursue it further.

       This inquiry is closed, and no further action will be taken in this case.




cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                               Page 2 of 2
